No. 20-6049

IN THE

Supreme Court of the United States
_______________

ISIDORO GONZALEZ-FERRETIZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_______________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
_______________
SUPPLEMENTAL BRIEF OF PETITIONER
_______________
GEREMY C. KAMENS
Federal Public Defender
Joseph S. Camden
Ass't Federal Public Defender
Counsel of Record
701 East Broad Street, Suite 3600
Richmond, VA 23219
(804) 565-0800
Joseph_Camden@fd.org
May 25, 2021

SUPPLEMENTAL BRIEF OF PETITIONER
Mr. Gonzalez submits this supplemental brief under this Court’s Rule 15.8 to
explain how this Court’s opinion in United States v. Palomar-Santiago, --- S.Ct. ----,
2021 WL 2044540 (May 24, 2021) affects his arguments in support of a grant of
certiorari.
Palomar-Santiago does not resolve the question presented. In fact, this case
would be an ideal vehicle to follow Palomar-Santiago and to clarify when an
administrative remedy is not “available” under 8 U.S.C. § 1326(d)(1) and an alien
has been “deprived of the opportunity for judicial review” under § 1326(d)(2). Thus,
this Court should grant Mr. Gonzalez’s petition for certiorari. In the alternative,
Mr. Gonzalez requests that the Court remand his case to the Fourth Circuit for
further proceedings in light of Palomar-Santiago.
1.

Isidoro Gonzalez-Ferretiz is a Mexican citizen, but speaks English fluently.

App. 14a. He was encountered by immigration officers in 2008 and granted
voluntary departure to Mexico. App. 9a. He returned to the United States, was
encountered again in 2012 by ICE, gave a sworn statement, and was released
without removal proceedings. App. 9a. In 2014, he was convicted of “theft from a
motor vehicle” in Pennsylvania and received an indeterminate sentence with
immediate parole. Then he was served with a Form I-851, which alleged that he
was deportable and ineligible for relief because his conviction was an aggravated
felony. The form provides two options – to contest or not contest the charges. A
limited set of options is set out for noncitizens to contest the charges, none of which
includes the option to contest whether the conviction is an aggravated felony:
-1-

App. 19a. Mr. Gonzalez checked and signed the section indicating he did not wish
to contest his removal.
In the district court, Mr. Gonzalez challenged his indictment under 8 U.S.C. §
1326(d). He pointed out that Form I-851 does not provide any avenue for a
noncitizen to admit the fact of conviction, but challenge whether the conviction is an
aggravated felony. App. 13a-15a. Therefore there were no administrative remedies
to exhaust, and any waiver of the right to judicial review was not considered and
intelligent under Mendoza-Lopez. Id.
The district court held that Mr. Gonzalez had failed to exhaust
administrative remedies and was not deprived of judicial review because Mr.
Gonzalez’s general waiver of the right to appeal, even without being provided an

-2-

opportunity to challenge the classification of his conviction, was valid. App. 14a15a.
On appeal, Mr. Gonzalez reiterated his claims. The Fourth Circuit agreed
with the district court; in particular, it held that, in order for a waiver of appeal to
be “considered and intelligent” under Mendoza-Lopez, a noncitizen need only be
aware in general of the right to appeal. App. 5a (“Gonzalez understood that he
could seek judicial review in his immigration proceedings as the I-851 form clearly
set forth[.]”). It rejected the assertion that a noncitizen’s waiver of appeal could be
invalid due to limitations on the issues he was permitted to contest. App. 4a-5a.
2.

Mr. Gonzalez’s petition presented one question: “whether a pro se alien’s

waiver of the right to appeal is ‘considered and intelligent’ under Mendoza-Lopez in
the absence of an opportunity to dispute whether his prior conviction is an
aggravated felony.” Pet. i.
Form I-851, used in all administrative removals, provides no avenue to
challenge whether the noncitizen’s conviction is an aggravated felony. Instead it
provides an exclusive checklist that forecloses that option. App. 22a. Most circuits
that have examined Form I-851 agree that disputing the legal characterization of
the prior conviction is not an available option in administrative removal
proceedings. Etienne v. Lynch, 813 F.3d 135, 141-42 (4th Cir. 2015); ValdiviezHernandez v. Holder, 739 F.3d 184 (5th Cir. 2013); United States v. Valdivia-Flores,
876 F.3d 1201, 1205-06 (9th Cir. 2017); Victoria-Faustino v. Sessions, 865 F.3d 869,
873 (7th Cir. 2017); but see Malu v. Atty. Gen., 764 F.3d 1282, 1289 (11th Cir. 2014).

-3-

But the circuits are split on whether that limitation deprives the alien of the
opportunity for judicial review under § 1326(d)(2), and what advice must be
provided to a pro se alien in order for him to make a “considered and intelligent”
decision about the right to appeal. See Pet. 6-10 (outlining split).
3.

Palomar-Santiago does not resolve that split. First, the administrative

removal proceedings used in the case below stand in stark contrast to the
immigration court hearing that Mr. Palomar-Santiago enjoyed, where the
noncitizen can “proffer defenses . . . including that the conviction identified in the
charging documents is not a removable offense.” Id. at *2. In Mr. Gonzalez’s case
no such option was provided; therefore Palomar-Santiago should not determine
whether there were available administrative remedies or judicial review.
Second: like in Mendoza-Lopez, and unlike in Palomar-Santiago, this case
presents a procedural question concerning whether a waiver of appeal can be
“considered and intelligent” when a noncitizen is precluded from disputing the
classification of his conviction. This question is “distinct” from the “substantive
validity” of the order itself. Palomar-Santiago, 2021 WL 2044540 at *4. In other
words, Mr. Gonzalez did not have the opportunity for judicial review because ICE
told him he could not dispute the classification of his conviction, and not simply
because they reached the wrong result on the merits.
In United States v. Mendoza-Lopez, 481 U.S. 828 (1987), the noncitizens
waived appeal on the record at their deportation hearings. This Court held that the
noncitizens were “deprived of their rights to appeal” because “the only relief for

-4-

which they would have been eligible was not adequately explained to them[.]” Id. at
842. This rendered their waivers of the right to file an administrative appeal “not
considered or intelligent[.]” Id.
Palomar-Santiago does not purport to overrule Mendoza-Lopez and its direct
holding on the deprivation-of-judicial-review requirement, which § 1326(d)(2)
adopted without alteration. This Court reserves to itself the “prerogative . . . to
overrule one of its precedents[.]” Bosse v. Oklahoma, 137 S.Ct. 1, 3 (Thomas, J.,
concurring) (citations omitted). Thus existing precedent from the courts of appeals
analyzing whether a purported waiver of appeal was “considered or intelligent”
under Mendoza-Lopez will stand. The holding of Palomar-Santiago on this point is
that a legal error on deportability does not alone render a waiver of appeal invalid,
where an alien was provided an opportunity to dispute the allegation of
deportability. Palomar-Santiago, 2021 WL 2044540 at *4 (“§ 1326(d)’s first two
procedural requirements are not satisfied just because a noncitizen was removed for
an offense that did not in fact render him removable.”). Palomar-Santiago did not
resolve the question of what information a noncitizen must have to make a
“considered and intelligent” decision on whether to file a petition for review. Here,
the procedures used never provided Mr. Gonzalez an opportunity to dispute
deportability – he invokes a procedural deficiency, not a substantive one. Therefore,
this case and this circuit split continue to be governed by Mendoza-Lopez rather
than Palomar-Santiago.

-5-

